             EVALUATION REPORT

           Information Security Risk Evaluation of
     NRC’s Technical Training Center – Chattanooga, TN

             OIG 13-A-11                January 30, 2013




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
               Information Security Risk Evaluation of
          NRC’s Technical Training Center – Chattanooga, TN




                               Contract Number: GS-00F-0001N
                               NRC Order Number: D12PD01191

                                                    January 22, 2013




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                         January 30, 2013




MEMORANDUM TO:            R. William Borchardt
                          Executive Director for Operations



FROM:                     Stephen D. Dingbaum /RA/
                          Assistant Inspector General for Audits


SUBJECT:                  INFORMATION SECURITY RISK EVALUATION OF NRC’s
                          TECHNICAL TRAINING CENTER – CHATTANOOGA, TN
                          (OIG-13-A-11)


Attached is the Office of the Inspector General’s (OIG) evaluation report titled
Information Security Risk Evaluation of NRC’s Technical Training Center –Chattanooga,
TN.

The report presents the results of the subject evaluation. The agency agreed with the
evaluation findings at the December 7, 2012, exit conference and did not provide any
changes to the draft report.

Please provide information on actions taken or planned on the recommendation within
30 days of the date of this memorandum. Actions taken or planned are subject to OIG
followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Team,
at 415-5911.

Attachment: As stated
[Page intentionally left blank]
                                                                 Information Security Risk Evaluation of
                                                      NRC’s Technical Training Center – Chattanooga, TN


EXECUTIVE SUMMARY


BACKGROUND

      The U.S. Nuclear Regulatory Commission (NRC) Office of the Inspector General tasked
      Richard S. Carson & Associates, Inc., to perform an information security risk evaluation
      of NRC’s regional offices and the Technical Training Center (TTC). This report presents
      the results of the information security risk evaluation for the TTC, which is located in
      Chattanooga, Tennessee.

OBJECTIVES

      The TTC information security risk evaluation objectives were to:

             Perform an independent information security risk evaluation of the NRC
             information technology (IT) security program, policies, and practices for
             compliance with the Federal Information Security Management Act (FISMA) of
             2002 in accordance with Office of Management and Budget guidance and Federal
             regulations and guidelines as implemented at the TTC.
             Evaluate the effectiveness of agency security control techniques as implemented
             at the TTC.

RESULTS IN BRIEF

      The TTC has made improvements in its implementation of NRC’s IT security program
      and practices for NRC IT systems since the previous evaluations in 2003, 2006, and
      2009. All corrective actions from the previous evaluations have been implemented.
      However, TTC IT security program and practices are not always consistent with NRC’s
      IT security program, as summarized below.

      IT Security Program

      Some NRC-owned laptops do not have a current authority to operate. As a result, the
      TTC is not fully compliant with NRC requirements for laptop systems.

RECOMMENDATIONS

      This report makes a recommendation to the Executive Director for Operations to improve
      NRC’s IT security program and implementation of FISMA at the TTC.

AGENCY COMMENTS

      At an exit conference on December 7, 2012, agency officials agreed with the findings and
      did not provide any changes to the draft report. The agency opted not to submit formal
      comments.


                                              i
                                  Information Security Risk Evaluation of
                       NRC’s Technical Training Center – Chattanooga, TN




[Page intentionally left blank]




               ii
                                                        Information Security Risk Evaluation of
                                             NRC’s Technical Training Center – Chattanooga, TN


ABBREVIATIONS AND ACRONYMS


FISMA        Federal Information Security Management Act
ISSO         Information Systems Security Officer
IT           Information Technology
MD           Management Directive
NIST         National Institute of Standards and Technology
NRC          Nuclear Regulatory Commission
OIG          Office of the Inspector General
OMB          Office of Management and Budget
SGI          Safeguards Information
TTC          Technical Training Center




                                     iii
                                  Information Security Risk Evaluation of
                       NRC’s Technical Training Center – Chattanooga, TN




[Page intentionally left blank]




              iv
                                                                                     Information Security Risk Evaluation of
                                                                          NRC’s Technical Training Center – Chattanooga, TN


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i
Abbreviations and Acronyms ..................................................................................... iii

1 Background .............................................................................................................. 1
2 Objectives ................................................................................................................. 2
3 Findings .................................................................................................................... 2
  3.1 Information Technology Security Program ................................................... 2
            3.1.1 TTC Laptop Systems ...................................................................................... 3
            FINDING #1: Some Laptops Do Not Have a Current Authority To Operate ............................. 3
            3.1.2 Laptop System Requirements ....................................................................... 3
            3.1.3 Agency Has Not Fully Met Requirements ..................................................... 4
4 Agency Comments .................................................................................................. 5

Appendix.               OBJECTIVES, SCOPE, AND METHODOLOGY ........................................... 7




                                                               v
                                  Information Security Risk Evaluation of
                       NRC’s Technical Training Center – Chattanooga, TN




[Page intentionally left blank]




              vi
                                                                              Information Security Risk Evaluation of
                                                                   NRC’s Technical Training Center – Chattanooga, TN


1       Background

The U.S. Nuclear Regulatory Commission (NRC) Technical Training Center (TTC) provides
training for the staff in various technical disciplines associated with the regulation of nuclear
materials and facilities and is located in Chattanooga, Tennessee. The TTC is part of the Office
of the Chief Human Capital Officer and operates under the direction of the Associate Director
for Human Resources Training and Development.

Office of Management and Budget (OMB) Circular A-130, Management of Federal Information
Resources, Appendix III, Security of Federal Automated Information Resources, requires
agencies to implement and maintain an information technology (IT) security program, including
the preparation of policies, standards, and procedures. An effective IT security program is an
important managerial responsibility. Management establishes a positive climate by making
computer security a part of the information resources management process and providing support
for a viable IT security program.

On December 17, 2002, the President signed the E-Government Act of 2002, which included the
Federal Information Security Management Act (FISMA) of 2002.1 FISMA outlines the
information security management requirements for agencies, which include an annual
independent evaluation of an agency’s information security program2 and practices to determine
their effectiveness. This evaluation must include testing the effectiveness of information security
policies, procedures, and practices for a representative subset of the agency’s information
systems. The evaluation also must include an assessment of compliance with FISMA
requirements and related information security policies, procedures, standards, and guidelines.
FISMA requires the annual evaluation to be performed by the agency’s Office of the Inspector
General (OIG) or an independent external auditor.3

NRC maintains an IT security program to provide appropriate protection of information
resources. In this regard, the role of the NRC OIG is to provide oversight of agency programs,
including the IT security program in support of the NRC goal to ensure the safe use of
radioactive materials for beneficial civilian purposes while protecting people and the
environment.

In support of its FISMA obligations, the NRC OIG tasked Richard S. Carson & Associates, Inc.,
to perform an information security risk evaluation of NRC’s regional offices and the TTC to
evaluate IT security programs in place at those locations, to include an assessment of potential

1
  The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the
  E-Government Act of 2002 (Public Law 107-347) and replaces the Government Information Security Reform Act,
  which expired in November 2002.
2
  NRC uses the term “information security program” to describe its program for ensuring that various types of
  sensitive information are handled appropriately and are protected from unauthorized disclosure in accordance with
  pertinent laws, Executive orders, management directives, and applicable directives of other Federal agencies and
  organizations. For the purposes of FISMA, the agency uses the term IT security program.
3
  While FISMA uses the language “independent external auditor,” OMB Memorandum M-04-25, FY 2004
  Reporting Instructions for the Federal Information Security Management Act, clarified this requirement by stating,
  “Within the context of FISMA, an audit is not contemplated. By requiring an evaluation but not an audit, FISMA
  intended to provide Inspectors General some flexibility….”


                                                         1
                                                                    Information Security Risk Evaluation of
                                                         NRC’s Technical Training Center – Chattanooga, TN


physical security weaknesses, and to identify existing problems and make recommendations for
corrective actions.

The information security risk evaluation focused on the following elements of NRC’s IT security
program, policies, and practices:

       Physical and Environmental Security Controls.
       Logical Access Controls.
       Configuration Management.
       Continuity of Operations and Recovery.
       IT Security Program.

This report presents the results of the information security risk evaluation for the TTC.

2      Objectives

The TTC information security risk evaluation objectives were to:

       Perform an independent information security risk evaluation of the NRC IT security
       program, policies, and practices for compliance with FISMA in accordance with OMB
       guidance and Federal regulations and guidelines as implemented at the TTC.
       Evaluate the effectiveness of agency security control techniques as implemented at the
       TTC.

The report appendix contains a description of the evaluation objectives, scope, and methodology.

3      Findings

The TTC has made improvements in its implementation of NRC’s IT security program and
practices for NRC IT systems since the previous evaluations in 2003, 2006, and 2009. All
corrective actions from the previous evaluations have been implemented. However, TTC IT
security program and practices are not always consistent with NRC’s IT security program as
defined in Management Directive (MD) and Handbook 12.5, NRC Automated Information
Systems Security Program; other NRC policies; FISMA; and National Institute of Standards and
Technology (NIST) guidance. While many TTC automated and manual IT security controls are
generally effective, some IT security controls need improvement. Specifics on the TTC IT
security program are described in the following section.

3.1    Information Technology Security Program

Overall, the TTC is following agency security policies and procedures regarding IT security.
The TTC has developed operating procedures that are generally up-to-date and are available on
the Human Resources Training and Development internal Web site. Staff receive training
regarding IT security during new employee orientation, take annual security awareness training,
and the Information Systems Security Officer (ISSO) sends periodic e-mails related to IT


                                                 2
                                                                     Information Security Risk Evaluation of
                                                          NRC’s Technical Training Center – Chattanooga, TN


security. Users are generally aware of and are following agency and TTC IT security policies
and procedures.

However, the evaluation team found issues with the TTC laptop systems.

3.1.1 TTC Laptop Systems

Laptops in use at the TTC are either seat-managed laptops or NRC-owned laptops. Seat-
managed laptops in use at the TTC include one laptop that is part of the agency’s new work from
anywhere/mobile desktop program. NRC-owned laptops in use at the TTC include a pool of
laptops used for various purposes and one laptop used to process safeguards information (SGI).

FINDING #1: Some Laptops Do Not Have a Current Authority To Operate

The NRC Laptop Security Policy, which specifies the requirements for authorization of laptop
systems, states that all NRC laptops must be either designated a system or included as part of an
existing system. NRC-owned laptops in use at the TTC include a pool of laptops used for
various purposes and one laptop used to process SGI. However, the evaluation team found that
some NRC-owned laptops do not have a current authority to operate. As a result, the TTC is not
fully compliant with NRC requirements for laptop systems.

3.1.2 Laptop System Requirements

The NRC Laptop Security Policy states that all NRC laptops must either be designated a system
or be included as part of an existing system. All laptops that are not seat-managed are
considered to be organization-managed, i.e., NRC-owned. All NRC-owned laptops that process
or access classified national security information belong to that office’s or region’s “Classified
Laptop System.” All NRC-owned laptops that process or access SGI and are not part of the
office’s or region’s “Classified Laptop System” belong to that entity’s “SGI Laptop System.”
All NRC-owned laptops that are not part of the office’s or region’s “Classified Laptop System”
or the office’s or region’s “SGI Laptop System” belong to that entity’s “General Laptop
System.”

The NRC Laptop Security Policy also specifies the following requirements for authorization
(formerly referred to as accreditation):

       Laptop systems must meet the requirements provided in the relevant standard security
       plan. There is a different standard security plan for classified, SGI, and general laptops.
       Laptop systems must be certified by the system owner as compliant with the relevant
       laptop system requirements.
       Laptop systems must be accredited by the appropriate Designated Approving Authority
       prior to processing any relevant (i.e., classified, SGI, sensitive unclassified) information
       on the system.
       Certification of a laptop system requires a system certification memorandum from the
       laptop system owner. The memorandum must include an enclosure that provides the



                                                 3
                                                                   Information Security Risk Evaluation of
                                                        NRC’s Technical Training Center – Chattanooga, TN


       names and contact information for the: System Owner, Certification Agent, ISSO,
       Alternate ISSO, and System Administrator.
       For each laptop or removable hard drive that is part of the laptop system, the enclosure
       must provide information such as physical storage location, location where system is
       used, brand, model, tag number, peripherals, etc.

3.1.3 Agency Has Not Fully Met Requirements

The TTC has not established a general laptop system to cover their pool of laptops; however, the
TTC laptop pool is in the process of being authorized to operate. A system description has been
written for the TTC general laptop system and the laptops have been evaluated using security
criteria provided by the Computer Security Office. The TTC plans to submit a request for
authority to operate the general laptop system in the next few months.

In addition, the TTC has one laptop used to process SGI, for which the TTC developed a
physical security plan for the protection of safeguards information, dated January 2009.
However, the TTC has not established a TTC SGI laptop system to cover this laptop, and the
physical security plan does not meet the requirements for a system description of an SGI laptop
system. For example, the document does not list those responsible for the SGI laptop, such as
the system owner, ISSO, and system administrator, and does not include the required laptop
specifics such as encryption, hardware, installed software, and any deviations from the standard
SGI laptop security plan. In addition, the SGI laptop has not been officially authorized to
operate.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   1. Establish an SGI laptop system and complete the process described in the NRC Laptop
      Security Policy for authorization of the SGI laptop system.




                                                4
                                                                  Information Security Risk Evaluation of
                                                       NRC’s Technical Training Center – Chattanooga, TN


4      Agency Comments

At an exit conference on December 7, 2012, agency officials agreed with the findings and did not
provide any changes to the draft report. The agency opted not to submit formal comments.




                                               5
                                  Information Security Risk Evaluation of
                       NRC’s Technical Training Center – Chattanooga, TN




[Page intentionally left blank]




               6
                                                                   Information Security Risk Evaluation of
                                                        NRC’s Technical Training Center – Chattanooga, TN


Appendix.          OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES

The TTC information security risk evaluation objectives were to:

        Perform an independent information security risk evaluation of the NRC IT security
        program, policies, and practices for compliance with FISMA in accordance with OMB
        guidance and Federal regulations and guidelines as implemented at the TTC.
        Evaluate the effectiveness of agency security control techniques as implemented at the
        TTC.

SCOPE

The scope of this information security risk evaluation included:

        The four floors the TTC occupies at 5746 Marlin Road, Chattanooga, Tennessee 37411-
        5677.
        TTC seat-managed equipment.
        TTC NRC-managed equipment.

The information security risk evaluation did not include controls related to the management of
safeguards or classified information.

The evaluation work was conducted during a site visit to the TTC in Chattanooga, TN, between
December 3, 2012, and December 7, 2012. Any information received from the agency
subsequent to the completion of fieldwork was incorporated when possible. Throughout the
evaluation, evaluators were aware of the potential for fraud, waste, or misuse in the program.

METHODOLOGY

Richard S. Carson & Associates, Inc., conducted a high-level, qualitative evaluation of the NRC
IT security program, policies, and practices as implemented at the TTC, and evaluated the
effectiveness of agency security control techniques as implemented at the TTC.

In conducting the information security risk evaluation, the following areas were reviewed:
physical and environmental security controls, logical access controls, configuration management,
continuity of operations and recovery, and IT security program. Specifically, the evaluation
team conducted site surveys of the four floors the TTC occupies at 5746 Marlin Road,
Chattanooga, Tennessee 37411-5677, focusing on the areas that house IT equipment. The team
conducted interviews with the TTC alternate ISSO, the seat-management server administrator,
the TTC server administrator, and other TTC staff members responsible for implementing the
agency’s IT security program at the TTC. The evaluation team also conducted user interviews
with 12 TTC employees. The team reviewed documentation provided by the TTC including
floor plans, inventories of hardware and software, local policies and procedures, security plans,



                                                7
                                                                 Information Security Risk Evaluation of
                                                      NRC’s Technical Training Center – Chattanooga, TN


backup procedures, contingency plans, and the Occupancy Emergency Plan. The information
security risk evaluation also included a network vulnerability assessment scan of the TTC
network. The scan did not include the network that supports the simulators.

All analyses were performed in accordance with guidance from the following:

       NIST standards and guidelines.
       NRC MD and Handbook 12.5, NRC Automated Information Security Program.
       NRC Computer Security Office policies, processes, procedures, standards, and
       guidelines.
       NRC OIG audit guidance.

The work was conducted by Jane M. Laroussi, CISSP, CAP, GIAC ISO-17799, and Virgil Isola,
CISSP, from Richard S. Carson & Associates, Inc.




                                              8
